WAIVER

Supreme Court of the United States

No. 20-283
Austin Bass v. Patrick Greve, et al.
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
HX Please enter my appearance as Counsel of Record for all respondents.

OQ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

” Iam a member of the Bar of the Supreme Court of the United States.

oO lamnot Laan a member of the Bar of this Court. Should a response be requested,

the respo. filed by a Bar iC
Signature lo. ¢ md

 

 

 

Date: Ka Al, AO2
(Type or print) Name, TE HoMaAs Wi. Co NOiT.
Jor. OMs. O Mrs. O Miss
Firm.

 

Address PO. Box /A%o
City & State_ CUCL AT. Es OH tip FE AIQ
prone (S13) QSY_ G.2b06

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Mes. KEL S. OLIVER

Resecca Wels DEemaree
Mn. Frank B&AZIC

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
